CERTIFICATE OF SERVICE
NO. TBD
Lori Madden-Grammer
Petitioner(s)
v.
Colorado Hospital Association Trust et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LORI
MADDEN-GRAMMER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Phil Weiser
Attorney General of Colorado
State Services Section
1300 Broadway, 6th Floor
Denver, CO 80203
720-508-6000
Counsel for State of Colorado

David G. Kroll
Industrial Claims Appeals Office
633 17th Street, Suite 200
Denver, CO 80202
303-318-8131
Admin. Law Judge,
Industrial Claims Appeals Office

Andrew R. Bantham
Ritesma & Lyon PC
2629 Redwing Road, Suite 330
Fort Collins, CO 80526
970-204-9053
t andrew.bantham@ritsema-lyon.com.
Counsel for Colorado Hosp. Ass. Trust and
Poudre Valley Hosp.

Dan Abramovich
October 11, 2019
SCP Tracking: Irwin-6377 S. Revere Parkway-Cover White

